                                                                               JA M E S M A D I S O N N AT I O N A L C O U N C I L F U N D     JA M E S M A D I S O N N AT I O N A L C O U N C I L F U N D                JA M E S M A D I S O N N AT I O N A L C O U N C I L F U N D

                                                                               STATEMENT OF FINANCIAL POSITION                                 STATEMENT OF ACTIVITIES                                                    STATEMENT OF CASH FLOWS
                                                                               SEPTEMBER 30, 2008                                              FO R T H E F I S C A L Y E A R E N D E D S E P T E M B E R 3 0 , 2 0 0 8   FO R T H E F I S C A L Y E A R E N D E D S E P T E M B E R 3 0 , 2 0 0 8


                                                                               ASSETS                                                          CHANGES IN UNRESTRICTED NET ASSETS                                         Cash ﬂows from operating activities:
                                                                               Cash                                         $         ,8   Revenues                                                                       Donations Received                            $     ,0,8




                                                   2008 Financial Statements
                                                                               Investments: (Note )                                           Membership contributions                          $     ,,7              Interest Received                                      ,0
                                                                                   U.S. Treasury Market Based                                  Miscellaneous gifts                                        ,             Cash paid to others                               (,,89)
                                                                                   Securities                                     ,0,0    Interest                                                   00,89             Cash paid to employees                               (6,07)
                                                                                   Growth and Income Pool                           70,8    Net unrealized gain/loss and realized                                          Net cash provided by (used by)
                                                                               Total investments                                  ,7,0    gain on investments (Note )                             (,6)             operating activities                          $        400,862
                                                                               Receivables:                                                    Imputed ﬁnancing for cost
                                                                                                                                                                                                                          Cash ﬂows from investing activities:
                                                                                                                                               subsidies (Note )                                          8,79
                                                                                   Pledges (Note )                                 879,79                                                                                   Investment in U.S. Treasury
                                                                                                                                               Dividends                                                   ,99
                                                                               Total assets                                 $     5,657,512                                                                                   Market Based Securities                       $   (,8,0)
                                                                                                                                               Royalties                                                     ,8
                                                                                                                                                                                                                              Redemption of Investment
                                                                                                                                               Net assets released from restrictions                      ,9             in U.S. Treasury Market Based
                                                                               LIABILITIES AND NET ASSETS
                                                                                                                                               Total revenues                                          2,140,679              Securities                                          ,97,68
                                                                               Accounts payable                             $       6,70                                                                                                                                                          7
6                                                                                                                                                                                                                            Net cash provided by (used by)
                                                                               Accrued payroll and annual leave                       ,80   Expenses (see Schedule B)                                                      investing activities                          $      (382,782)




                                                                                                                                                                                                                                                                                                     ANNUAL REPORT 2008
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                                               Total liabilities                                    90,0    Personnel costs                                            60,08
                                                                                                                                                                                                                          Net Increase (decrease) in Cash                              18,080
                                                                                                                                               Travel and transportation and
                                                                               Net assets (Note 4)                                             subsistence/support persons                                 77,8         Cash at beginning of year                                    24,751
                                                                                   Unrestricted-Undesignated                      ,69,676    Other services                                              86,678         Cash at end of year                               $          42,831
                                                                                   Unrestricted-Council designated                             Books and library materials                                ,8
                                                                                                                                                                                                                          Reconciliation of Changes in Net Assets
                                                                                   for projects                                     60,87    Exhibit opening events, receptions, and                                    to Net Cash From Operating Activities
                                                                                   Temporarily donor restricted                                Madison Council meetings                                   7,8
                                                                                   for projects                                   ,76,699    Contractual and personnel services                         ,0         Change in Net Assets                              $        171,140
                                                                               Total net assets                                   ,67,9    Ofﬁce supplies, printing, and materials                     ,68
                                                                                                                                                                                                                          Adjustments to reconcile changes in
                                                                                                                                               Total expenses                                          ,70,7          net assets to net cash provided from
                                                                               Total liabilities and net assets             $     5,657,512    Increase/decrease in unrestricted                                          operating activities
                                                                                                                                               net assets                                                 89,98
                                                                                                                                                                                                                          Non-cash loss on mutual fund investments                   ,6
                                                                               These ﬁnancial statements should be read only in connection
                                                                                                                                               CHANGES IN TEMPORARILY                                                     Decrease in investment discount                              ,80
                                                                               with the accompanying notes to ﬁnancial statements.
                                                                                                                                               RESTRICTED NET ASSETS
                                                                                                                                                                                                                          Decrease in pledges receivable                                ,6
                                                                                                                                               Contributions                                              6,
                                                                                                                                                                                                                          Decrease in accrued interest receivables                      6,706
                                                                                                                                               Temporarily restricted donations                              8,9
                                                                                                                                                                                                                          Decrease in accrued payroll and
                                                                                                                                               Net assets released from restrictions                    (,9)         annual leave                                                  ,7
                                                                                                                                               Increase/decrease in temporarily                                           Decrease in accounts payable                               (,90)
                                                                                                                                               restricted net assets                                    (8,808)
                                                                                                                                                                                                                          Total Adjustments                                          229,722
                                                                                                                                               Increase in net assets                                     7,0
                                                                                                                                               Net assets at beginning of year                         ,96,0          Net Cash provided by (used by)
                                                                                                                                                                                                                          Operating Activities                              $        400,862
                                                                                                                                               Net assets at end of year                         $     5,367,192
                                                                                                                                                                                                                          These ﬁnancial statements should be read only in connection
                                                                                                                                               These ﬁnancial statements should be read only in connection
                                                                                                                                                                                                                          with the accompanying notes to ﬁnancial statements.
                                                                                                                                               with the accompanying notes to ﬁnancial statements.
                                                   JA M E S M A D I S O N N AT I O N A L C O U N C I L F U N D

                                                   NOTESTO FINANCIAL STATEMENTS
                                                   SEPTEMBER 30, 2008



                                                   NOTE 1                                                        C. USE OF ESTIMATES                                           NOTE 2                                                      Council Designated for Projects) and $,76,699
                                                   REPORTING ENTITY AND SUMMARY                                  The preparation of the Fund’s ﬁnancial statements             INVESTMENTS                                                 (Temporarily Donor Restricted for Projects) is earmarked
                                                   OF SIGNIFICANT ACCOUNTING PRINCIPLES                          in conformity with generally accepted accounting              A. U. S. TREASURY
                                                                                                                                                                                                                                           for initiatives such as the purchase of special
                                                                                                                 principles requires management to make estimates                                                                          acquisitions including overseas rare publications,
                                                   A. DESCRIPTION OF FUND                                                                                                      An act of Congress approved March , 9, and              funding for the new Children’s Reading Room, support of
                                                                                                                 and assumptions that affect the amounts reported in
                                                                                                                                                                               subsequently amended, permits up to $0 million of          the eighth National Book Festival hosted by First Lady
                                                   The James Madison National Council Fund (JMNC Fund)           the ﬁnancial statements and accompanying notes.
                                                                                                                                                                               trust funds to be invested with the United States           Laura Bush, the Junior Fellows Program, and Curatorial
                                                   was initiated by the Librarian of Congress, accepted          Actual results could differ from these estimates.
                                                                                                                                                                               Treasury as a perpetual loan, at a ﬂoating interest rate,   Awards, and an amount that is restricted to be used at
                                                   through a poll vote by the Library of Congress Trust Fund
                                                                                                                                                                               adjusted monthly, but no less than four percent per         the discretion of the Librarian of Congress for projects
                                                   Board in July 989 and reafﬁrmed October 7, 989.             D. CONTRIBUTIONS AND REVENUE RECOGNITION
                                                                                                                                                                               annum. Other investments with U.S. Treasury were as         that arise that do not have funding or the time horizon to
                                                   A gift of $00,000 from Robert Gwinn, Chairman of             The Fund records as contribution revenue amounts              follows:                                                    raise money for the project.
                                                   the Board of Encyclopedia Britannica, established             received in the form of cash, promises or pledges to give.
                                                   the Fund. The JMNC Fund is reported in the Library of         Unconditional promises or pledges to give are recognized                                                                  Ending Net Assets includes undelivered orders of
                                                   Congress gift and trust funds.                                as a contribution receivable. Multi-year pledges or           INVESTMENT                NON-MARKETABLE, MARKET BASED      $7,78 which are funds that have been obligated for
                                                                                                                                                                                                               GOVERNMENT SECURITIES
                                                   The James Madison National Council is an advisory             promises due over a period of time are discounted to                                                                      budgetary purposes, for goods and services not yet
                                                                                                                 their present value, based upon prevailing interest rates,    Par                                    $    ,0,0       received for JMNC Fund operations and designated
                                                   board of business people and philanthropists that
                                                   contribute ideas, expertise, and ﬁnancial backing             and recognized in the period of initial pledge.               Unamortized Premium                    $            0       projects.
8                                                 to support the Library's collections and programs. The                                                                      Unamortized Discount                   $       (9,70)                                                                    9
                                                                                                                 E. INCOME TAX
                                                   Council is open to persons from the private sector                                                                          Amortized Cost                         $    ,0,0




                                                                                                                                                                                                                                                                                                         ANNUAL REPORT 2008
                                                                                                                                                                                                                                           NOTE 5
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                   interested in advancing the Library's outreach mission.       The JMNC Fund operates for the beneﬁt of the Library of
                                                                                                                 Congress, which is an instrument of the United States                                                                     IMPUTED FINANCING FOR COST SUBSIDIES
                                                   Signiﬁcant accounting policies followed by the JMNC Fund      and, as such, is not subject to income tax.                   B. MUTUAL FUNDS                                             An adjustment of $8,79 was recorded as an imputed
                                                   are presented below.                                                                                                                                                                    ﬁnancing source and a corresponding expense in the
                                                                                                                                                                               The JMNC Fund invested $00,000 in the growth and
                                                                                                                 F. INVESTMENT POLICY                                                                                                      accompanying ﬁnancial statements. This adjustment
                                                   B. BASIS OF ACCOUNTING AND PRESENTATION                                                                                     income pool (non-Treasury mutual fund investments) in
                                                                                                                 The Library of Congress Trust Fund Board determines the       996. Market value of the growth and income pool as of      recognizes the full cost of pensions and other health
                                                   The Fund’s ﬁnancial statements have been prepared on          investment policy for the Library's trust funds. The policy   September 0, 008, totaled $70,8.                       and life insurance beneﬁts incurred by the Ofﬁce of
                                                   the accrual basis in accordance with generally accepted       provides three options for investment of the JMNC Fund                                                                    Personnel Management during the employees, active
                                                   accounting principles.                                                                                                      The net loss on investments of $,6 consists of the
                                                                                                                 funds:                                                                                                                    years of service.
                                                                                                                                                                               following: $0,69 realized gain of mutual fund capital
                                                   The Fund adopted ﬁnancial reporting standards                 I   a permanent loan with the U.S. Treasury                   gains distributions and $, unrealized loss on the
                                                   applicable to not-for-proﬁt organizations. The ﬁnancial                                                                                                                                 NOTE 6
                                                                                                                 I   a pool of U.S. Treasury market-based securities           growth and income pool.                                     EXPENSES BY FUNCTIONAL CLASSIFICATION
                                                   statements are prepared in accordance with Financial
                                                   Accounting Standards No. 7, and recognizes net              I   a private investment pool consisting of ﬁve stock         NOTE 3                                                      As permitted by SFAS No. 7, the Library has elected to
                                                   assets based on the existence of applicable restrictions          funds and one money market fund. The funds                PLEDGES                                                     present its operating expenses by natural classiﬁcation
                                                   limiting their use.                                               recommended by the Library of Congress Trust                                                                          in its Statements of Activities for the period ending
                                                                                                                     Fund Board’s investment committee and approved            Contributions of unconditional promises to give
                                                   Temporarily restricted net assets result from donor-                                                                                                                                    September 0, 008. The functional breakdown of these
                                                                                                                     by the Board are:                                         (pledges) to the JMNC Fund are recognized as
                                                   imposed restrictions that permit the Fund to use or                                                                                                                                     expenses is as follows (see Schedule B):
                                                                                                                                                                               temporarily restricted revenue in the period received.
                                                   expend the assets after the restriction has been                  I   Vanguard Institutional Index Fund                     They are recorded at their present value using a
                                                   satisﬁed. When a donor-imposed restriction is satisﬁed,           I   Vanguard Capital Opportunity Fund                     market discount rate. Accretion of the discount in          FISCAL YEAR 2008
                                                   that is, when a stipulated time restriction ends or the                                                                     subsequent years is also recorded as contribution           EXPENSES BY FUNCTIONAL CLASSIFICATION                AMOUNT
                                                                                                                     I   Fidelity Blue Chip Growth Fund
                                                   purpose of the restriction is accomplished, temporarily                                                                     revenue. Outstanding pledges of $,78,70 at               JMNC Fund Projects and Programs            $      89,9
                                                   restricted net assets are reclassiﬁed to unrestricted             I   Fidelity Capitol Appreciation Fund
                                                                                                                                                                               September 0, 008, were discounted through ﬁscal           Members Speciﬁc Projects                          ,9
                                                   net assets and reported in the Statement of Activities            I   Fidelity Growth Company Fund                          year 07 at a market discount rate and are included in
                                                   as net assets released from restrictions.                                                                                                                                               Supporting Activities - Fundraising             ,07,978
                                                                                                                     I   Fidelity Dividend Growth Fund                         the statement of ﬁnancial position at their discounted
                                                                                                                                                                                                                                           Total Expenses                                 $1,750,731
                                                   Unrestricted net assets result from the receipt of                                                                          present value of $879,79. The amounts due in future
                                                                                                                 Investments in U.S. market-based securities are stated at
                                                   unrestricted contributions, the expiration of donor-                                                                        years at their current discounted value are: $,889
                                                                                                                 cost net of any unamortized premium or discount, which
                                                                                                                                                                               in ﬁscal year 009; $,960 in 00; $,6 in
                                                                                                                                                                                                                                           NOTE 7
                                                   imposed restrictions on contributions, and changes in
                                                                                                                 approximates market value at September 0, 008. The
                                                                                                                                                                               0; $0,9 in 0; and $709,900 in ﬁscal year
                                                                                                                                                                                                                                           RETIREMENT PLANS
                                                   other assets and liabilities. These assets are available
                                                                                                                 permanent loan is an interest bearing par value                                                                           Employees of JMNC Fund participate in two different
                                                   to the Fund for use in support of current and future                                                                        07. The Library regularly monitors the status of all
                                                                                                                 investment which equals the market value. Stock and                                                                       retirement plans. Civil Service employees participate in
                                                   operations. The Library of Congress provides support                                                                        pledges and adjusts accordingly; therefore no allowance
                                                                                                                 money market mutual funds are stated at current market                                                                    the Civil Service Retirement System (CSRS) or the Federal
                                                   services to the James Madison National Council. The                                                                         for uncollectible pledges has been established.
                                                                                                                 value.                                                                                                                    Employees Retirement System (FERS). FERS is the
                                                   cost of these services are, by their nature, indirect,
                                                   difﬁcult to quantify, and ﬁnanced with appropriated funds                                                                   NOTE 4                                                      system in effect for most employees hired after
                                                   of the Library. To the extent that these services are                                                                       NET ASSETS                                                  December , 98.
                                                   provided, they are not considered operating expenses of                                                                     The JMNC Net Assets of $,67,9 are classiﬁed             In ﬁscal year 008, the JMNC Fund paid approximately
                                                   the James Madison National Council.                                                                                         as Unrestricted-Undesignated, Unrestricted-Council          $,9 to fund retirement beneﬁts, excluding FICA
                                                                                                                                                                               Designated for Projects or Temporarily Donor Restricted     taxes.
                                                                                                                                                                               for Projects. Of this total amount, $,69,676 is
                                                                                                                                                                               classiﬁed as Unrestricted-Undesignated. The balance         This information is an integral part of the accompanying
                                                                                                                                                                               of $,897,6 consisting of $60,87 (Unrestricted-         ﬁnancial statements.
                                                   INDEPENDENT AUDITOR’S REPORT


                                                                                                                      SUMMARY                                                      B is not a required part of the Fund’s ﬁnancial state-           A material weakness is a signiﬁcant deﬁciency, or com-
                                                                                                                      As stated in our opinion on the ﬁnancial statements, we      ments. Such information has been subjected to the au-            bination of signiﬁcant deﬁciencies, that results in more
                                                                                                                      concluded that the Fund’s ﬁnancial statements for the        diting procedures applied in the audit of the basic              than a remote likelihood that a material misstatement of
                                                                                                                      year ended September 0, 008, are presented fairly, in      ﬁnancial statements. In our opinion, this information is         the ﬁnancial statements will not be prevented or detected
                                                                                                                      all material respects, in conformity with accounting prin-   fairly stated, in all material respects, in relation to the      by the Fund’s internal control. Our consideration of inter-
                                                   To the Steering Committee                                                                                                       basic ﬁnancial statements taken as a whole.                      nal control was for the limited purpose described in the
                                                   James Madison National Council Fund                                ciples generally accepted in the United States of America.
                                                                                                                      Our consideration of internal control over ﬁnancial re-                                                                       second paragraph of this report, and would not neces-
                                                                                                                                                                                   INTERNAL CONTROL OVER FINANCIAL REPORTING                        sarily identify all deﬁciencies in internal control that might
                                                   We have audited the accompanying statement of financial            porting (including the safeguarding of assets) disclosed
                                                                                                                      no material weaknesses. The results of our tests of com-     In planning and performing our audit, we considered the          be signiﬁcant deﬁciencies or material weaknesses. We
                                                   position of the James Madison National Council Fund (the                                                                                                                                         noted no matters involving internal control and its oper-
                                                                                                                      pliance with certain provisions of laws and regulations      Fund’s internal control over ﬁnancial reporting by obtain-
                                                   Fund) as of September 30, 2008, and the related                    disclosed no instances of noncompliance that are re-         ing an understanding of the design effectiveness of the          ations that we consider to be material weaknesses or
                                                   statements of activities and cash flows (hereinafter               quired to be reported herein under Government Auditing       Fund’s internal control, determining whether these con-          signiﬁcant deﬁciencies.
                                                   referred to as the financial statements) for the year then         Standards issued by the Comptroller General of the           trols had been placed in operation, assessing control
                                                                                                                                                                                   risk, and performing tests of the Fund’s controls in order       COMPLIANCE AND OTHER MATTERS
                                                   ended. These financial statements are the responsibility of        United States. The following sections discuss our opinion
                                                   the Fund’s management. Our responsibility is to express            on the Fund’s ﬁnancial statements, our consideration of      to determine our auditing procedures for the purpose of          As part of obtaining reasonable assurance about whether
                                                   an opinion on these financial statements based on our              the Fund’s internal control over ﬁnancial reporting, our     expressing our opinion on the ﬁnancial statements and            the Fund’s ﬁnancial statements are free of material mis-
0                                                                                                                                                                                                                                                                                                                   
                                                                                                                      tests of the Fund’s compliance with certain provisions of    not to provide an opinion on the internal controls. Ac-          statement, we performed tests of its compliance with
                                                   audit.




                                                                                                                                                                                                                                                                                                                     ANNUAL REPORT 2008
                                                                                                                                                                                   cordingly, we do not express an opinion on the effective-        laws and regulations, including laws governing the use of
JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                                                                                      applicable laws and regulations, and management’s and
                                                                                                                      our responsibilities.                                        ness of the Fund’s internal control over ﬁnancial                budgetary authority, laws, regulations, and government-
                                                                                                                                                                                   reporting.                                                       wide policies identiﬁed in Appendix E of OMB Bulletin No.
                                                                                                                      OPINION ON THE FINANCIAL STATEMENTS
                                                                                                                                                                                   We limited our control testing to those controls neces-          07-0, and other laws, noncompliance with which could
                                                                    OFFICE OF THE INSPECTOR GENERAL
                                                                                                                      We have audited the accompanying statement of ﬁnancial       sary to achieve the following OMB control objectives that        have a direct and material effect on the determination of
                                                                                                March 23, 2009        position of the Fund as of September 0, 008, and the       provide reasonable, but not absolute assurance, that: )         ﬁnancial statement amounts. We limited our tests of
                                                                                                                      related statements of activities and cash ﬂows for the       transactions are properly recorded, processed, and sum-          compliance to these provisions and did not test compli-
                                                                                                                                                                                                                                                    ance with all laws and regulations applicable to the Fund.
                                                         To the Steering Committee
                                                                                                                      year then ended. These ﬁnancial statements are the re-       marized to permit the preparation of the ﬁnancial state-
                                                                                                                                                                                                                                                    However, providing an opinion on compliance with certain
                                                         James Madison National Council Fund
                                                                                                                      sponsibility of the Fund’s management. Our responsibil-      ments in accordance with accounting principles generally
                                                                                                                      ity is to express an opinion on these ﬁnancial statements    accepted in the United States of America, and assets are         provisions of laws and regulations was not an objective
                                                         We contracted with the independent public accounting firm    based on our audit.                                          safeguarded against loss from unauthorized acquisition,          of our audit, and, accordingly, we do not express such an
                                                         of Kearney & Company to audit the Fund’s financial                                                                        use, or disposition; ) transactions are executed in             opinion.
                                                         statements. The firm is responsible for the attached
                                                                                                                      We conducted our audit in accordance with auditing
                                                                                                                                                                                   compliance with laws governing the use of budget au-             The results of our tests of compliance described in
                                                         auditor’s report and the opinion and conclusions expressed
                                                                                                                      standards generally accepted in the United States of
                                                         in that report.
                                                                                                                      America; the standards applicable to ﬁnancial audits con-    thority, government-wide policies and laws identiﬁed in          the preceding paragraph disclosed no instances of
                                                                                                                      tained in Government Auditing Standards, issued by the       Appendix E of OMB Bulletin No. 07-0, and other laws             noncompliance or other matters that are required to
                                                         We reviewed Kearney & Company’s report and related           Comptroller General of the United States; and Ofﬁce of       and regulations that could have a direct and material ef-        be reported under Government Auditing Standards and
                                                         documentation. Our review was not intended to enable us to   Management and Budget (OMB) Bulletin No. 07-0, Audit        fect on ﬁnancial statements; and ) transactions and             OMB Bulletin No. 07-0.
                                                         express, and we do not express, an opinion on the Fund’s     Requirements for Federal Financial Statements. Those         other data that support reported performance measures
                                                         financial statements, conclusions on internal control, or
                                                                                                                                                                                                                                                    This report is intended solely for the information and use
                                                                                                                      standards require that we plan and perform the audit         are properly recorded, processed, and summarized to
                                                         compliance with laws and regulations. Our review disclosed
                                                                                                                                                                                                                                                    of the Steering Committee, management of the Fund, and
                                                                                                                                                                                   permit the preparation of performance information in
                                                         no instances in which Kearney & Company did not materially
                                                                                                                      to obtain reasonable assurance about whether the                                                                              Congress, and is not intended to be, and should not be,
                                                                                                                                                                                   accordance with criteria stated by management. We did
                                                         comply with U.S. generally accepted government auditing
                                                                                                                      ﬁnancial statements are free of material misstatement.                                                                        used by anyone other than these speciﬁed parties.
                                                                                                                                                                                   not test all internal controls relevant to the operating
                                                         standards.
                                                                                                                      An audit includes examining, on a test basis, evidence
                                                                                                                      supporting the amounts and disclosures in the ﬁnancial       objectives broadly deﬁned by the Federal Managers’
                                                                                                                      statements. An audit also includes assessing the ac-         Financial Integrity Act of 98.
                                                                                                                      counting principles used and signiﬁcant estimates made       A control deﬁciency exists when the design or operation
                                                                                           Karl W. Schornagel
                                                                                                                      by management, as well as evaluating the overall ﬁnan-       of a control does not allow management or employees, in
                                                                                           Inspector General
                                                                                                                                                                                                                                                    February 0, 009
                                                                                                                      cial statement presentation. We believe that our audit       the normal course of performing their assigned functions,
                                                                                                                                                                                                                                                    Alexandria, Virginia
                                                                                                                      provides a reasonable basis for our opinion.                 to prevent or detect misstatements on a timely basis. A
                                                                                                                      In our opinion, the ﬁnancial statements referred to above    signiﬁcant deﬁciency is a control deﬁciency, or combina-
                                                                                                                      present fairly, in all material respects, the ﬁnancial       tion of control deﬁciencies, that adversely affects the
                                                                                                                      position of the Fund as of September 0, 008, and its       Fund’s ability to initiate, authorize, record, process, or re-
                                                                                                                      net assets and cash ﬂows for the year then ended, in         port ﬁnancial data reliably in accordance with generally
                                                                                                                      conformity with accounting principles generally accepted     accepted accounting principles, such that there is more
                                                                                                                      in the United States of America.                             than a remote likelihood that a misstatement of the
                                                                                                                                                                                   Fund’s ﬁnancial statements that is more than inconse-
                                                                                                                      Our audit was conducted for the purpose of forming an        quential will not be prevented or detected by the Fund’s
                                                                                                                      opinion on the ﬁnancial statements referred to in the ﬁrst   internal control.
                                                                                                                      paragraph. The information contained in Schedules A and
                                                   JA M E S M A D I S O N N AT I O N A L C O U N C I L F U N D

                                                   SUPPLEMENTAL INFORMATION



                                                   SCHEDULE A
                                                   Schedule of Net Assets Available for Designation


                                                   Total Net Assets                                   $,67,9
                                                   Net assets restricted by
                                                   donors for projects                                (,76,699)
                                                   Net assets designated by the
                                                   Council for projects                                (60,87)
                                                   Total restricted or designated
                                                   net assets                                         (,897,6)


                                                   Net Assets Available for Designation $              2,469,676



JAMES MADISON COUNCIL OF THE LIBRARY OF CONGRESS




                                                   SCHEDULE B
                                                   Schedule of Expenditures

                                                                                                         FUND            MEMBERS’         SUPPORTING
                                                                                                 PROJECTS AND             SPECIFIC         ACTIVITIES---
                                                                                                    PROGRAMS             PROJECTS        FUNDRAISING              TOTAL

                                                   Personnel costs                                $     ,008       $       9     $     ,         $   60,08
                                                   Travel and transportation and
                                                   subsistence/support persons                                          ,806             7,68             77,8
                                                   Other services                                                0              0            86,678             86,678
                                                   Books and library materials                           7,76           ,68                      0        ,8
                                                   Exhibit Opening Events, Receptions,
                                                   and Madison Council Meetings                         ,699            ,8           6,7             7,8
                                                   Contractual and personnel services                  ,980           89,7             ,966            ,0
                                                   Ofﬁce supplies, printing and materials                  80                  0            0,8             ,68
                                                   Totals                                         $ 189,394          $ 543,359       $ 1,017,978           $ 1,750,731
